                                             SENSITIVE BUT UNCLASSIFIED


OFFICE OF INSPECTOR GENERAL

                                                       United States Department of State
                                                       and the Broadcasting Board of Governors
                                                       Office of Inspector General




                               OFFICE OF INSPECTIONS

                               Inspection of Broadcasting Board
                               of Governors’ Operations in Indonesia

                               Report Number ISP-IB-11-25, March 2011
Inspector
General
       of




                                                                      IMPORTANT NOTICE
Office




                               This report is intended solely for the official use of the Department of State or the Broadcasting Board
                               of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                               General. No secondary distribution may be made, in whole or in part, outside the Department of State
                               or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                               criminal, civil, or administrative penalties.



                                             SENSITIVE BUT UNCLASSIFIED

    SENSITIVE BUT UNCLASSIFIED





 PURPOSE, SCOPE AND METHODOLOGY
        OF THE INSPECTION
This inspection was conducted in accordance with the Quality Standards
for Inspections, as issued by the President’s Council on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of
Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

Purpose
The Office of Inspections provides the Secretary of State, the Chairman
of the BBG, and Congress with systematic and independent evaluations of
the operations of the Department and the BBG. Inspections cover three
broad areas, consistent with Section 209 of the Foreign Service Act of
1980:
 • 	 Policy Implementation: whether policy goals and objectives are being
     effectively achieved; whether U.S. interests are being accurately
     and effectively represented; and whether all elements of an office or
     mission are being adequately coordinated.
 • 	 In accordance with the U.S. International Broadcasting Act of 1994
     (P.L. 103-236) Section 304 (a) (3) (B), OIG is prohibited from evalu­
     ating the content of BBG broadcasting entities. The section, entitled
     “Respect for Journalistic Integrity of Broadcasters,” states that “The
     Inspector General shall respect the journalistic integrity of the broad­
     casters covered by this title and may not evaluate the philosophical or
     political perspectives reflected in the content of broadcasts.”
 • 	 Resource Management: whether resources are being used and
     managed with maximum efficiency, effectiveness, and economy and
     whether financial transactions and accounts are properly conducted,
     maintained, and reported.
 • 	 Management Controls: whether the administration of activities and
     operations meets the requirements of applicable laws and regulations;
     whether internal management controls have been instituted to ensure
     quality of performance and reduce the likelihood of mismanage­
     ment; whether instance of fraud, waste, or abuse exist; and whether
     adequate steps for detection, correction, and prevention have been
     taken

Methodology
In conducting this inspection, the inspectors: reviewed pertinent
records; as appropriate, circulated, reviewed, and compiled the
results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recom­
mendations with offices, individuals, and organizations by this
review.




    SENSITIVE BUT UNCLASSIFIED

                  UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED





                                           United States Department of State
                                           and the Broadcasting Board of Governors
                                           Office of Inspector General




                                     PREFACE


This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service
Act of 1980, as amended. It is one of a series of audit, inspection, investigative, and
special reports prepared by OIG periodically as part of its responsibility to promote
effective management, accountability and positive change in the Department of State
and the Broadcasting Board of Governors.

This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

The recommendations therein have been developed on the basis of the best knowl­
edge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result
in more effective, efficient and/or economical operations.

I express my appreciation to all of those who contributed to the preparation of this
report.




                                       Harold W. Geisel
                                       Deputy Inspector General




               SENSITIVE BUT UNCLASSIFIED

                      SENSITIVE BUT UNCLASSIFIED



                                         TABLE OF CONTENTS



KEY JUDGMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

MISSION AND PROGRAM IMPLEMENTATION. . . . . . . . . . . . . . . . . . . . . . . . . 7

  Voice of America Jakarta News Bureau. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

  Jakarta Regional Marketing and Program Placement Satellite Office . . . . . . . . . . . 8

RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

  Voice of America Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

  Jakarta Regional Marketing and Program Placement Satellite Office Resources . . . . . 9

  Reimbursement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

 Voice of America Jakarta News Bureau Controls. . . . . . . . . . . . . . . . . . . . . . . . . . . 11

 Monitoring of Affiliate Agreements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

SECURITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

  Voice of America Jakarta News Bureau. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

  Jakarta Voice of America Indonesian language service Office . . . . . . . . . . . . . . . . 13

  Jakarta Regional Marketing and Program Placement Satellite Office . . . . . . . . . . 14

FORMAL RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

PRINCIPAL OFFICIALS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19





           OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011           iv

                      SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED





v   OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011

               SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



KEY JUDGMENT

   •   With limited staff, the Broadcasting Board of Governors’ (BBG) establish-
       ments in Indonesia have done an excellent job of reaching out to and report-
       ing on this large and complex country.

The inspection took place in Washington, DC, between September 13 and 24, 2010,
and in Jakarta, Indonesia, between September 30 and November 1, 2010. (b) (6)

     In Indonesia, the team inspected the Jakarta Voice of America (VOA) News
Bureau, the Jakarta VOA Indonesian service, and the satellite office of the Bangkok
Regional Marketing and Program Placement Office (RMPP). Both the Jakarta VOA
News Bureau and the Jakarta RMPP satellite office were supervised from agency
establishments in Bangkok that are the subject of a separate report.




       OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011   1

                  SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED





2   OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011

               SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




CONTEXT


President Barack Obama’s 4 years as a primary school student in Jakarta are a
source of pride to Indonesians, as is his Indonesian-American sister. Senior U.S.
and Indonesian officials, meeting in Washington in September 2010, put substance
behind what is called the Comprehensive Partnership. Indonesia is the world’s fourth
largest country by population. The United States and Indonesia, respectively, are
the world’s second and third largest democracies. During the inspection, the topic
of President Obama’s impending visit was a frequent issue with the media. Indonesia
enjoys freedom of the press. The media are lively and ubiquitous.




       OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011   3

                  SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED





4   OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011

               SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




EXECUTIVE DIRECTION


There are three BBG establishments in Indonesia: the Jakarta VOA News Bureau,
the Jakarta VOA Indonesian service office, and a satellite office of the Bangkok
RMPP. There is a single U.S. direct-hire supervisor at the VOA News Bureau, who
serves as both the correspondent and the bureau chief. The other two offices are
headed by locally employed (LE) staff. Although there is cooperation among the
three offices, there is no formal arrangement regarding which one is the leader or
supervises the others. Each office has strong leadership in its own right. Both the
Jakarta VOA News Bureau and the Jakarta RMPP satellite office are supervised from
offices in Bangkok. During the inspection, the RMPP officer in Bangkok came to
Indonesia to work with the satellite office staff on a conference for affiliates. The
Jakarta VOA Indonesian language service office is supervised by VOA’s director of
the Indonesian language service in Washington.




       OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011   5

                  SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED





6   OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011

               SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



MISSION AND PROGRAM
IMPLEMENTATION


VOICE OF AMERICA JAKARTA NEWS BUREAU
VOA News Bureaus provide news and report to VOA Central News. The BBG
oversees VOA News Bureaus through the VOA Washington headquarters organiza­
tion. Jakarta is one of 13 VOA overseas correspondent bureaus.


Jakarta Voice of America Indonesian Service Office
The VOA Indonesian language service office in Jakarta serves multiple functions.
First, it is a news bureau generating stories in Indonesian on its own initiative or
as assigned by the Washington VOA Indonesian language service. Second, it is a
technical support facility, recording transmissions from Washington on DVD or
other media and delivering it to those affiliates, especially television stations, that
don’t have the capability to directly download from a satellite. The VOA Jakarta
broadcast technician also provides technical support to affiliates having difficulty
receiving VOA transmissions. Third, the VOA Jakarta office and its director serve as
in-country U.S. representatives with Indonesian government agencies and officials,
the broadcasting industry, business associations, and academic institutions. This role
provides the VOA Indonesian service in Washington with valuable information about
rules, regulations, media, and social trends, while it generates positive public relations
benefits. Finally, the VOA Jakarta office serves as a valuable marketing force, help­
ing to recruit new affiliates and place new VOA Indonesian service products. The
VOA Jakarta director is a highly respected, experienced, and well connected media
executive.

The VOA Indonesian language service office in Jakarta (with excellent support from
the RMPP office) organizes regular affiliate conferences that strengthen the affili­
ates, build relationships between VOA and the affiliates, and generate feedback and
new programming ideas for VOA. During the OIG inspection, the Jakarta VOA
Indonesian language service office organized affiliate conferences in Bandung and
Surabaya. Staff from the Jakarta RMPP satellite office (see below) attended both
conferences, and the Bangkok RMPP officer attended the affiliate conference in
Surabaya.


       OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011   7

                  SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



    JAKARTA REGIONAL MARKETING AND PROGRAM
    PLACEMENT SATELLITE OFFICE
    The Jakarta RMPP satellite office has recruited and maintains relations with about
    123 radio affiliates on the island of Java, the most populous island in the Indonesian
    archipelago. There are another 111 local television and radio affiliates in the rest of
    Indonesia. All 33 provinces have affiliates, and affiliates are found in most provincial
    capitals. In all, 75 percent of Indonesia’s population is reached via these affiliates.
    Jakarta hosts four television affiliates that have national reach. Another four national
    television stations in Jakarta do not have affiliate agreements, but regularly air VOA
    content.

    Many radio stations in Indonesia broadcast without a license. The Jakarta RMPP
    satellite office is careful not to make agreements with unlicensed stations. According
    to the Indonesian radio broadcasters association, there are about 1,500 licensed and
    unlicensed radio stations in the country.




8          OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011

                      SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




RESOURCE MANAGEMENT



VOICE OF AMERICA RESOURCES
The VOA correspondent has limited resources. When there have been temporary
technical difficulties at his own office, he has gone to Jakarta VOA Indonesian
language service office to send in an important, time-sensitive news story. The
current correspondent’s immediate predecessor opted for a combined, home-office
arrangement that has the advantage of convenience when he must file an after-hours
story.

Four Indonesian national employees, including the office director, work at the
Jakarta VOA Indonesian language service office. They are embassy employees and
have embassy identification badges.




JAKARTA REGIONAL MARKETING AND PROGRAM
PLACEMENT SATELLITE OFFICE RESOURCES
The two LE staff members in the Jakarta RMPP satellite office work from their
homes or while on the road. The office contracts three times a year for someone to do
installations at new affiliates that have networks. In the event of damage from light­
ning or wind gusts, the office may pay for local repair. Other affiliates are just given
satellite parameters for down linking VOA content. One radio station at a university
downloads archived VOA programs from the Internet.




REIMBURSEMENT
The inspection team found that the VOA Jakarta bureau chief and the director of
the VOA Jakarta Indonesian language service office were both paying out of pocket
for hundreds of dollars worth of expenses, on a continuing basis, for months. At any
given time, the VOA correspondent is temporarily out-of-pocket for $2,000. The
reason is that neither office has a cashier or petty cash. The chief of the VOA Jakarta


       OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011   9

                  SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


     Indonesian language service office, for example, pays out of pocket for janitorial
     services, water, postage, staff transportation, office stationery, and other work related
     items. The VOA chose not to incur the expense of a cashier, but in doing so it
     transferred a burden to its employees. Compounding that situation is the fact that,
     although each office has purchase cards and uses them appropriately, not all vendors
     will accept a foreign purchase card.


         RECOMMENDATION 1: The Voice of America should implement a
         process to end the use of employees’ personal funds to temporarily pay agency
         costs at offices with no petty cash or cashier. (Action: VOA)




10          OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011

                       SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




MANAGEMENT CONTROLS



VOICE OF AMERICA JAKARTA NEWS BUREAU CONTROLS
A contractor assists with administrative tasks as well as more directly support­
ing news gathering. Although the correspondent/bureau chief regretted the time
consumed by his administrative responsibilities, the OIG team found his manage­
ment to be sound.




MONITORING OF AFFILIATE AGREEMENTS
Affiliate agreements vary regarding what is given to the affiliate broadcaster in
exchange for airing BBG content. Typically, a broadcaster agrees to carry some mix
of news and features. Some features are rebroadcast by the affiliate several times in a
day. Short news segments and short features are popular, because they can be easily
integrated into a broadcaster’s regular programming. The news is valued, because
it gives the audience something it needs and wants, without the local broadcaster
having to bear the expense of fielding its own news team. Broadcasters without
affiliate agreements have greater flexibility in selecting which features to air, without
having a standing obligation to do more. These intermittent users of BBG content
are not included in performance statistics. Essential to affiliate agreements is that the
affiliate acknowledge the relevant BBG broadcast entity as the source of the news
or other feature. Some affiliates receive various amounts of equipment and training,
while others simply have access to the content. Other incentives, such as inclusion in
an affiliate off-site conference, also are employed to maintain affiliate loyalty and to
strengthen relationships.

Monitoring compliance with the terms of affiliation agreements is inexact under
the best of circumstances, but RMPP satellite office staff in Jakarta makes efforts
aimed at doing so. The Indonesian archipelago is large and contains thousands of
islands, and travel funds are limited for the RMPP satellite office staff. Compliance
is primarily based on self reporting by the affiliates. However, listeners may comment
on a language service’s Facebook® page and self-identify their location. Staff members
also listen to broadcasts when traveling. Cable television provides another means to
monitor compliance.


       OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011   11

                  SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





12   OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011

                SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



SECURITY


VOICE OF AMERICA JAKARTA NEWS BUREAU
The VOA bureau chief is a U.S. Government employee but, as a VOA correspondent,
he is not affiliated with Embassy Jakarta or under chief of mission authority. He has
one local contractor and a local resident, U.S. citizen, as a “stringer” to assist him,
when appropriate. He contracts, as needed, for other assistance. The bureau chief
works from his house and employs a contract guard company to provide 24-hour
coverage. (b)(2)(b)(5)




JAKARTA VOICE OF AMERICA INDONESIAN LANGUAGE
SERVICE OFFICE
The Jakarta VOA Indonesian language service office is located in the Deutsche Bank
Building, which is a modern high rise structure near a major American hotel. The
VOA office is on the tenth floor and is not listed on the lobby directory. Building
vehicle security consists of drop arms, underbody inspection, and examination of
vehicle interiors prior to allowing entry to the parking lot. Building visitors are
screened by building guards and packages are put through X-ray inspection while


               SENSITIVE BUT UNCLASSIFIED

                        SENSITIVE BUT UNCLASSIFIED


     visitors pass through a walk through metal detector. Identification cards are required,
     and visitors must state their business. Building visitor passes are issued to some visi-
     tors, but upon presentation of embassy identification badges (not retained) qualified
     visitors are not required to have a visitor pass in order to visit the VOA offices.
     (b)(2)(b)(5)




     JAKARTA REGIONAL MARKETING AND PROGRAM
     PLACEMENT SATELLITE OFFICE
     The Jakarta RMPP satellite office staff members work closely with the VOA
     Indonesian language service office at times, but they have no office. They work out
     of their homes and conduct many on-site visits to prospective affiliates.




14           OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011

                        SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




FORMAL RECOMMENDATION


RECOMMENDATION 1: The Voice of America should implement a process to
end the use of employees’ personal funds to temporarily pay agency costs at offices
with no petty cash or cashier. (Action: VOA)




       OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011   15

                  SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





16   OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011

                SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




PRINCIPAL OFFICIALS


                                                                     Name                                       Arrival Date

VOA Jakarta Bureau Chief                                       Brian Padden                                         June 2009

VOA Indonesian service Jakarta Chief                           Frans Padak Demon                               January 2005

International Broadcasting Bureau
   RMPP Country Representative                                 Marintan Lumban Tobing                       November 1999
   for Indonesia




       OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011        17

                  SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





18   OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011

                SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




ABBREVIATIONS


BBG                                Broadcasting Board of Governors
LE                                 locally employed
OIG                                Office of Inspector General
RMPP                               Regional Marketing and Program Placement
VOA                                Voice of America




       OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011   19

                  SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





20   OIG Report No. ISP-IB-11-25 - Inspection of Broadcasting Board of Governors’ Operations in Indonesia - March 2011

                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE

OR MISMANAGEMENT

 of Federal programs hurts everyone.



           Contact the

   Office of Inspector General


         HOTLINE

to report illegal or wasteful activities:


            202-647-3320 

            800-409-9926


         oighotline@state.gov


              oig.state.gov


      Office of Inspector General

       U.S. Department of State

            P. O. Box 9778

         Arlington, VA 22219



     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.



SENSITIVE BUT UNCLASSIFIED

